                                                                         Issue Date
                                                                                March 21, 2011
                                                                         Audit Report Number
                                                                                2011-PH-1008




TO:             Clifford Taffet, Director, Office of Affordable Housing, DGH
                //signed//
FROM:           John P. Buck, Regional Inspector General for Audit, Philadelphia Region,
                  3AGA

SUBJECT:        The West Virginia Housing Development Fund, Charleston, WV, Generally
                Administered Its Tax Credit Assistance Program Funded Under the Recovery
                Act in Accordance With Applicable Requirements


                                         HIGHLIGHTS

    What We Audited and Why

                We audited the West Virginia Housing Development Fund’s (Fund) Tax Credit
                Assistance Program (Program) due to a complaint from the Recovery and
                Transparency Board. We also audited the Fund’s Program because it was the
                only housing finance agency across the Nation that had not spent any of its
                Program funds. The funds were made available under the HOME Investment
                Partnerships Program (HOME)1 for capital investments in low-income housing
                tax credit projects. Our objective was to determine whether the Fund
                administered its Program in accordance with the American Recovery and
                Reinvestment Act of 2009 (Recovery Act) and applicable U.S. Department of
                Housing and Urban Development (HUD) requirements.

    What We Found

                The Fund generally administered its Program in accordance with Recovery Act
                and HUD requirements. Specifically, it (1) met the required fund commitment
1
 Although Program funds were appropriated under the HOME program, funds are not subject to any HOME
program requirements other than the completion of environmental reviews.
           deadline, (2) selected and funded eligible projects, (3) executed written
           agreements that complied with requirements, (4) received and disbursed Program
           funds in a timely manner, (5) ensured that Davis-Bacon prevailing wage
           requirements were met, (6) completed environmental clearances and obtained
           HUD approval of requests for release of funds before executing written
           agreements, (7) met increased transparency and reporting requirements, (8)
           obtained lobbying certifications as required by the Recovery Act, and (9) met the
           required expenditure deadline. However, regarding the reporting of job creation
           information, the Fund did not report 38 full-time equivalents (FTE) created during
           the first three quarters of 2010.

What We Recommend


           We recommend that HUD require that the Fund maintain the FTE data that were
           not reported until the Federal Government requests the information.

Auditee’s Response


           We provided a discussion draft audit report to the Fund on March 4, 2011, and
           discussed it with the Fund at an exit conference on March 14, 2011. The Fund
           provided written comments on the draft audit report on March 16, 2011. It agreed
           with the conclusions and recommendation in the report. The complete text of the
           auditee’s response can be found in appendix A of this report.




                                           2
                           TABLE OF CONTENTS

Background and Objective                                                        4

Results of Audit
      Finding: The Fund Generally Administered Its Program in Accordance With   5
      Applicable Requirements

Scope and Methodology                                                           10

Internal Controls                                                               11

Appendix
   A. Auditee Comments                                                          12




                                           3
                      BACKGROUND AND OBJECTIVE

The West Virginia Housing Development Fund (Fund) is a component unit of the State of West
Virginia created under the provisions of Article 18, Chapter 31, of the Code of West Virginia in
1931. It was established to develop and improve housing opportunities for West Virginians and
is responsible for administering the State’s low-income housing tax credit (LIHTC) program.

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009 (Recovery Act) into law. The purpose of the Recovery Act is to jump-start the Nation’s
ailing economy, with a primary focus on creating and saving jobs in the near term and investing
in infrastructure that will provide long-term economic benefits. The Recovery Act appropriated
$2.25 billion under the HOME Investment Partnerships program (HOME) heading for a Tax
Credit Assistance Program (Program) grant to provide funds for capital investments in LIHTC
projects. The U.S. Department of Housing and Urban Development (HUD) awarded Program
grants to the 52 State housing credit agencies including the District of Columbia and the
Commonwealth of Puerto Rico. These 52 agencies are the only eligible grantees for the
Program.

Although Program funds were appropriated under the HOME heading, these funds are not
subject to any HOME requirements other than the environmental review and can only be used in
LIHTC projects, which are administered through the U.S. Department of the Treasury. HUD
awarded grants to facilitate development of projects that received LIHTC awards between
October 1, 2006, and September 30, 2009. On July 1, 2009, HUD awarded the Fund $16.5
million in Program funds.

The Recovery Act imposed additional reporting requirements and obligation and expenditure
requirements on the grant recipients. For example, the Fund was required to commit at least 75
percent of its grant funds by February 16, 2010. It was also required to demonstrate that project
owners expended 75 percent of the grant funds by February 16, 2011, and expend 100 percent of
the grant funds by February 16, 2012. Transparency and accountability are critical priorities in
the funding and implementation of the Recovery Act.

Our objective was to determine whether the Fund administered its Program in accordance with
the requirements of the Recovery Act and applicable HUD requirements.




                                                4
                                    RESULTS OF AUDIT


Finding: The Fund Generally Administered Its Program in Accordance
With Applicable Requirements
The Fund generally administered its Program in accordance with Recovery Act and HUD
requirements. Specifically, it (1) met the required fund commitment deadline, (2) selected and
funded eligible projects, (3) executed written agreements that complied with requirements, (4)
received and disbursed program funds in a timely manner, (5) ensured that Davis-Bacon
prevailing wage requirements were met, (6) completed environmental clearances and obtained a
HUD approval request for release for funds before executing written agreements as required, (7)
met increased transparency and reporting requirements, (8) obtained lobbying certifications to
ensure compliance with 24 CFR (Code of Federal Regulations) Part 87, and (9) met the required
expenditure deadline. However, the Fund did not report 38 full-time equivalents (FTE) created
for the first three quarters of 2010 as required. This condition occurred because the Fund
misunderstood reporting requirements. It believed that since it had not disbursed funds to the
Program developers, it was not necessary to report the FTEs. By not reporting the number of
FTEs created, it did not provide the general public access to accurate information concerning the
number of jobs created with Program funds.



    The Fund Met the Required
    Commitment and Disbursement
    Deadlines


                   Under the Recovery Act and HUD’s Office of Community Planning and
                   Development (CPD) Notice CPD-09-03-REV,2 the Fund was required to commit
                   at least 75 percent of its Program grant of $16.5 million by February 16, 2010. It
                   was able to commit more than $15.1 million, or 91.5 percent, of its Program funds
                   by the required deadline. It allocated its grant funds for the acquisition, new
                   construction, and rehabilitation of 15 projects located in the State of West
                   Virginia. The Fund was also required to disburse at least 75 percent of its
                   Program funds by February 16, 2011. As of February 15, 2011, the Fund had
                   disbursed more than $12.4 million, or 75 percent, to 13 projects. Therefore, it met
                   the required commitment and disbursement deadlines.




2
    Revised July 27, 2009


                                                    5
The Fund Selected and Funded
Eligible Projects


           HUD Notice CPD 09-03-REV required that the Fund distribute Program funds
           competitively under the requirements of the Recovery Act and pursuant to its
           qualified allocation plan. The notice also provided that projects eligible to receive
           grant funds were rental housing projects that received an LIHTC award under
           Section 42(h) of the Internal Revenue Code of 1986 during the period October 1,
           2006, to September 30, 2009. All of the projects for which the Fund awarded grant
           funds were eligible to receive Program grant funds, and a competitive process was
           used in accordance with its qualified allocation plan. The Fund awarded $16.5
           million in Program grant funds to 15 LIHTC projects owned by 9 Program
           developers for eligible activities including rehabilitation of rental units and the
           acquisition of projects that would provide low-income housing.

Written Agreements Complied
With Program Requirements

           HUD Notice CPD-09-03-REV required that the Fund execute legally binding
           written agreements with each project owner. The written agreement was required
           to set forth all of the Program and crosscutting Federal grant requirements
           applicable to the funding and make these requirements enforceable through the
           recordation of a restriction that was binding on all owners. The Fund executed
           written agreements with all 9 developers for 15 projects to set forth the
           requirements of the Program. All Program written agreements were signed and
           dated before Program funds were disbursed.


The Fund Received and
Disbursed Funds in a Timely
Manner


           The Fund drew down $12.4 million in grant funds from HUD’s automated Line of
           Credit Control System and disbursed grant funds for eligible expenses within the 3-
           day requirement. Under the Recovery Act and HUD Notice CPD 09-03-REV, the
           Fund was required to disburse funds to eligible activities within 3 days of the receipt
           of Federal funds. HUD Notice CPD 09-03-REV also required that the Fund
           disburse funds after a request for release of funds was approved. The Fund
           disbursed the funds after approval was provided and within 3 working days as
           required.




                                              6
The Fund Ensured That Davis-
Bacon Prevailing Wage
Requirements Were Met

           Under the Recovery Act and HUD Notice CPD 09-03-REV, the Fund was required
           to ensure that contractors and subcontractors hired with Recovery Act funds were
           paid prevailing wages in compliance with the Davis-Bacon Act. The Davis-Bacon
           requirements apply prospectively to the construction project as of the date of the
           Program award. Requirements of 40 U.S.C. (United States Code) 3145 and 29 CFR
           Part 3 state that contractors and subcontractors working on covered projects must
           submit weekly certified payroll records to the grantee for all laborers and
           mechanics, identifying their job classifications, rate of pay, and daily and weekly
           hours worked. The Fund adequately ensured that its contractors and
           subcontractors met this requirement.

Environmental Clearances
Were Completed and Requests
for Release of Funds Were
Approved as Required


           Under HUD Notice CPD-09-03-REV, the Fund was required to complete an
           environmental clearance and obtain a HUD-approved request for release of funds
           or certified environmental determination for categorically excluded projects
           before executing written agreements with project owners. We reviewed the
           Fund’s certified environmental clearances for all 15 projects and determined that
           the Fund ensured that all projects had environmental clearances performed before
           the execution of written agreements and the disbursement of Federal funds.

The Fund Met Increased
Transparency and Reporting
Requirements

           Under the Recovery Act and HUD Notice CPD-09-03-REV, the Fund was
           required to post on its Web site, a description of its competitive selection criteria
           for awarding Program funds to eligible projects. The Fund was also required to
           identify all projects selected for funding and post the amount of each Program
           award on its Web site. It complied with these requirements.




                                             7
The Fund Obtained Lobbying
Certifications as Required

           Under the Recovery Act and HUD Notice CPD 09-03-REV, the Fund was required
           to follow requirements set forth in 24 CFR Part 87. Regulations at 24 CFR Part 87
           require that recipients of Federal contracts, grants, loans, or cooperative agreements,
           who receive more $100,000 in funds, certify that they will not use appropriated
           funds to influence or attempt to influence an officer or employee of the Federal
           Government. The Fund obtained lobbying certifications from its Program
           contractors or subcontractors as required by 24 CFR Part 87.

The Fund Did Not Report Job
Creation Data in a Timely
Manner

         Under the Recovery Act and Office of Management and Budget (OMB) Circular
         10-08, the Fund was required to report the number of jobs created with its Program
         funds. FTEs were to be estimated by dividing the total number of hours worked
         and funded by the Recovery Act within the reporting period by the quarterly hours
         in a full-time schedule. The determined amount was to be reported as the number
         of jobs created for the specific period. We reviewed the Recovery Act Web site to
         determine whether the Fund complied with the additional reporting requirements
         associated with the Recovery Act. The Fund did not report job creation data in a
         timely manner. We reviewed the documentation collected and maintained by the
         Fund to determine the number of jobs to be reported. Based on documentation
         reviewed, 38 FTEs were created during the first three quarters of 2010. However,
         the Fund did not report the FTEs created during the first three quarters as required.
         When we asked Fund officials why they had not reported the data, they stated that
         they had not reported the data because they had not disbursed Program funds and
         had misinterpreted the requirements. After funds were disbursed for the fourth
         quarter ending December 31, 2010, the Fund reported that 18 jobs had been created
         during the 3-month period.

         OMB Circular 10-08 requires that if a grantee has to make corrections to previous
         quarters on Recovery.gov, corrections can only be made for the preceding quarter if
         the current quarter has not ended. If the deadlines have passed, the grantee is
         required to maintain the FTE data until the Federal Government requests the
         information, and the Recovery Transparency Board will then determine how the
         information will be made available on Recovery.gov.




                                              8
Recommendation



          We recommend that the Director, Office of Affordable Housing, require the Fund to

          1A.    Maintain the FTE data that were not reported until the Federal
                 Government requests the information.




                                          9
                        SCOPE AND METHODOLOGY

We conducted the audit from November 2010 to February 2011 at the Fund’s offices located at
814 Virginia Street East, Charleston, WV, and our offices located in Richmond, VA. The audit
covered the period February 2009 through October 2010 but was expanded when necessary to
include other periods.

To accomplish our objective, we reviewed

       Relevant background information;

       The Recovery Act;

       Policies and procedures related to the Program’s award process, expenditures, and
       disbursements;

       Written agreements and environmental clearance determinations for Program award
       recipients; and

       Davis-Bacon wage records and lobbying certifications submitted by Program award
       recipients.

We conducted interviews with the Fund’s staff. We conducted onsite reviews of rehabilitation
work in progress for the Washington Manor and Littlepage Terrace developments where
Program grant funds were being used. We non-statistically selected and reviewed a sample of 4
developers who developed 10 projects with funds totaling more than $11.3 million in Program
grant funds. The award amounts ranged from approximately $94,000 to nearly $5.5 million.

To achieve our audit objectives, we relied in part on computer-processed data in the Fund’s
database. Although we did not perform a detailed assessment of the reliability of the data, we
did perform a minimal level of testing and found the data to be adequate for our purposes.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               10
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                      Policies, procedures, and other management controls implemented to ensure
                      that the Fund administered Program funds in accordance with the Recovery
                      Act and HUD requirements.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government auditing standards. Our evaluation of internal
               controls was not designed to provide assurance regarding the effectiveness of the
               internal control structure as a whole. Accordingly, we do not express an opinion on
               the effectiveness of the Fund’s internal control.




                                                 11
                 APPENDIX

Appendix A

             AUDITEE COMMENTS




                    12
13
